 z
  :@:                                                  NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS
   4
                                                 CLOSEOUT MEMORANDUM
       (hlo a+0

Case Number: I06090025
                                                                                       1         Page 1 of 1



                    Our investigation determined that the subject:'

                          submitted significantly overlapped proposals to NSF and another federal agency;
                          received compensation from NSF awards substantially in excess of approved budget
                          amounts;
                          overcharged NSF awards for indirect costs on a subcontract, and failed to disclose the
                          subcontract to NSF;
                          received payments for effort that he documented with questionable time and effort
                          reports; and
                          failed to comply with his University's conflicts of interest and financial disclosure
                          policy.

                   This memo, the attached Report of Investigation, and the Deputy Director's decision
          letters constitute the case closeout. Accordingly, this case is closed.




          1
              Dr. Murry Salby.



NSF OIG Form 2 (1 1/02)
      National Science Foundation
        Office of Inspector General




                  Report of Investigation
                  Case Numbeg I06090025
                           February 20,2009



This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside NSF
        only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.

                                                                                       NSF OIG Form 22b (1 1/06)
                                          Executive Summary


Allegations
                   Subject submitted significantly overlapped proposals to NSF and another federal
                    agency
                   Subject received compensation fiom NSF awards substantially in excess of approved
                    budget amounts
                   Subject, acting through a non-profit entity, overcharged NSF awards for indirect
                   costs on a subcontract, and failed to disclose the subcontract to NSF
                   Subject, acting through his for-profit entity, received payments for effort that he
                   documented with questionable time and effort reports
                   Subject failed to comply with his University's conflicts of interest and financial
                    disclosure policy

Investigative
Findings
                OIG substantiated each of the five allegations, and established an extensive pattern of
                deceptive statements made by the Subject to his University and to NSF. OIG concluded
                that the activities of other individuals, and the non-profit and for-profit entities, were
                attributable to the Subject.

University
Findings
                The University substantiated conflicts of interest violations by the Subject. The Subject
                did not fully participate in the University investigation, and provided deceptive
                information to the University during its investigation. The Subject resigned fiom his
                faculty position at the University.

OIG
Recommendations
                OIG recommends that NSF debar the Subject for a period of five years.
Background

       The Subject has received federal award funds from NSF and other agencies at his
University for the last 15-20 years. In 1994, the Subject created an outside, non-profit company
(Company 1) with his [redacted], to receive federal funds from NSF and other agencies for
research that paralleled his research at the University. The Subject received compensation
through this company for his effort on its awards, and may have received other payments through
this company derived from its collection of substantial indirect costs on the awards. The Subject
never fully disclosed to either NSF or his University his association with Company 1, his
dominant role in its activities and operations, or the extent of outside compensation received
through it, instead minimizing his relationship with the company.

         In late 2001 and early 2002, the Subject stopped charging effort directly on Company 1
awards, and instead accrued these charges as services of another company (Company 2) he
created in 2003 and put into place as a subcontractor to Company 1, without telling NSF or other
grantor agencies. The Subject received payments in 2003 and subsequent years for effort through
Company 2 substantially in excess of amounts that had been approved for his services in the
awards to Company 1, with no accountability as to the preparation and accuracy of his time and
effort reports at Company 2. The Subject's use of Company 2 and his initiation of a
subcontracting relationship shielded the Subject's compensation from accountability and
discovery. Furthermore, because Company 1 did not limit its recovery of indirect costs on its
charges to NSF and other agencies for the costs of this subcontract, Company 1 received a
windfall in indirect cost recoveries.

       The Subject's fifteen-year-long pattern of deceptive statements to his University and to
NSF disguised his participation in entities and activities that existed for the purpose of
maximizing his personal financial compensation and shielding the extent of his compensation
from discovery or accountability.



           We received an allegation that a proposal1 submitted to NSF by the subject2and
[redacted13under the auspices of Company l 4 was substantially similar to a proposal5 previously
submitted by the same individuals to another federal agency under the auspices of their
~ n i v e r s i t y .Of
                     ~ six pages in the NSF proposal devoted to "Proposed Investigation," 53% is
identical in text and figures to the previously submitted proposal, including a substantial overlap
in proposed research work. Almost all of the introductory part of the NSF proposal, including
results from prior NSF support, is duplicated verbatim from the previously submitted proposal.
The cover page of an NSF proposal includes a check box to indicate whether the proposal has


' [Redacted]. This proposal was declined.
  Principal Investigator (PI) Dr. Muny Salby (Subject).
  [Redacted].
4
  [Redacted]. (Company 1).
  [Redacted]. This proposal was declined.
  [Redacted].
been submitted to another Federal agency. This box was not checked, nor did the previous
proposal appear on the current and pending support declaration page of the NSF proposal.

        Accordingly, we wrote to the Subject and [redacted] (Tab 1) and received a response
from each (Tab 2). We later determined that the nearly identical responses were composed by
the Subject. The Subject's response stated that "the proposals are certainly not identi~al,"~  but
does not explain the substantial similarities in text, nor the substantial overlap in proposed
research in the two proposals. The Subject further stated that "we have no explanation"* of why
the pending non-NSF proposal was not listed in the current and pending support section of the
NSF proposal, and characterized the omission as an "oversight, which we regret."g The Subject
did not address our question of why the proposals were submitted from two different research
entities, namely the University and Company 1. The proposals, with duplicate material
highlighted, are included at Tab 3.

        Given the apparent duplicative efforts of the Subject and the [redacted] at the University
and at Company 1, we initiated an investigation into the conduct of the Subject, grantee
Company 1, and (ultimately) subcontractor Company 2," as related to the administration of NSF
awards, with emphasis on two IVSF awards (Awards 1 and 2)11 funded most recently at Company
1. We involved the Subject's University in the investigation to determine what conflicts of
interest and financial disclosures had been made to the University, and how the University
managed any conflicts.

        We investigated the following matters:

        (a) Duplication/overlap of proposals;
        (b) Adequacy of compliance by the Subject and the [redacted] with their University's
        conflicts of interest and financial disclosure policies and procedures;
        (c) Reallocation of salary under NSF awards from post-doctoral research associate
        and "Other Personnel" budget lines to the Subject;
        (d) Subcontracting relationship between Company 2 and Company 1, and the indirect
        costs charged NSF by Company 1 for the services of the Subject received
        through Company 2;
        (e) Effort reporting by the Subject for services invoiced by Company 2 to Company 1.

11.     Investigative Findings

        We list below our investigative findings, with associated evidence and explanations for
each finding.12


  Subject response of Mar 16 2005, page 1 (Tab 2).
   Subject response of Mar 16 2005, page 2 (Tab 2).
   Subject response of Mar 16 2005, page 2 (Tab 2).
10
   [Redacted].
"
12
   [Redacted].
   Many documents and other records have been collected in this case investigation. Any material not included as
Tabs within this Report is available for inspection.
        Finding 1. The Subject formed Company 1 in 1994 to perform research funded by
federal awards. The Subject formed Company 2 in 2003 in concert with another indi~idual,'~
and used it as an intermediary between the Subject and Company 1 for payments to the Subject
for research funded by federal awards to Company 1. The Subject directed the activities and
operations of Companies 1 and 2.

        Evidence: Articles of Incorporation for Company 1 and Company 2 are on record with
the [redacted] Secretary of state.14 The Subject is listed as a member of the Board of Directors
for Company 1, but is not listed in the documents describing Company 2. Our interviews with
the [redacted] (President of Company 1) and the President of Company 2 reveal that the Subject
directed the activities of both Company 1 and Company 2.15 The [redacted]16[. . . . redacted . . . .
redacted]. Minutes for the meetings of the Board of Directors of Company 1 confirm Company
1's operation at the Subject's direction; for example, the meeting of April 20,2006 is the first
indication of awareness by the other Directors of the four-year-old relationship between the
Subject and Company 2.17 The President of Company 2 was complicit with the Subject in the
actions of Company 2 to bill Company 1 (see Finding 2), but the substantive leadership and
decision-making for Company 2 were clearly exercised by the Subject. The President of
Company 2 seems to be in that position because of a personal relationship with the subject.''

        We conclude that the Subject directed the actions of the [redacted] and the President of
Company 2, and the operations of Company 1 and Company 2,19 and that the direct culpability is
his. We note that after our investigation began, [redacted] took actions to increase the
accountability of Company 1 in the administration of the subcontract with Company 2. These
actions included notification to program officers at NSF and NASA about the existence of the
subcontract, and the imposition of timely administrative requirements on Company 2. The
Subject strenuously objected to these actions, and subsequently claimed "mismanagement" on
the part of [redacted].20

         Finding 2. The Subject received compensation from federal awards made to Company 1
in a total amount far in excess of approved budget amounts. The Subject provided inadequately
documented time and effort reports to Company 2 as support for billing invoices sent to
Company 1, and directed Company 2 to delay submission of the billing invoices for purposes that
may have included concealing outside compensation from his University, or concealing income



l3 [Redacted].
l4 Articles of Incorporation for Company 1 and Company 2 are at Tab 4.
    Notes for the first and second OIG interviews with [redacted] are at Tab 5. Notes for the interview with the
President of Company 2 are also at Tab 5.
l6 [Redacted].
l7 Minutes for meetings of the Board of Directors of Company 1 are at Tab 6 . Minutes for meetings after the
investigation began are noteworthy for actions taken to mitigate the consequences of the Subject's actions.
18
    The Subject and the President of Company 2 served at the same time on the Board of Directors for [redacted].
l9 The Subject states to the University (vide inza) that Company 2 acts solely to represent his personal fmancial
interests.
20 Subject letter to [redacted] Feb 19 2006 (Tab 15).
from a state court;' or both. The Subject's detailed time and effort reports were separately
created years after the fact, and contained inherently unrealistic days and hours of claimed effort.

         Evidence: Table 1 reflects federal funds awarded to Company 1 for 2002-2005, and
includes both the requested amount in each listed budget category as well as the actual amount
funded in the approved budget. In the period 2002-2005, Company 1 received funds through two
NSF awards (Awards 1 and 2) and one award (Award 3) from N A S A . ~The      ~ approved budgets
for all three awards included salary for a post-doctoral research associate and a
programmerlresearch associate. Company 1 records show that only the Subject, [redacted], and a
Research Assistant (RA) received salaries, and that Company 1 made no payments to a post-
doctoral research associate or separate programmer.

Table 1. Summary of proposal requests and approved budget awards for Company 1




        We obtained information on Company 2's treatment of the Subject's efforts through
billings to Company 1, and Company 2's payments directly to the Subject, from IRS Form W-2s
and from a forensic analysis of subpoenaed financial information from Company 2. Subject's
compensation is summarized in Table 2.25


Table 2. Summary of payments to Company 2 for Subject's effort, and payments by
Company 2 to Subject as disclosed on W2 forms


'' [Redacted]. See [redacted]. The court reviewed Subject's income for 1999-2002. Charges accrued by Company
2 for Subject's efforts in 2001 and 2002 were not billed to Company 1 until 2003.
22 Awards 1 and 2 are NSF awards as described in an earlier footnote. Award 3 is a NASA award to Company 1
based on proposal [redacted], submitted by the Subject and [redacted] on May 12,2003, and awarded in 2004. In
that proposal, Subject presented himself as an employee of Company 1, even though funds from this award to the
Subject were all routed through Company 2, and had been for two years prior to the proposal submission. There is
no mention in the NASA proposal of Company 2, nor are funds requested for a subcontract to Company 2. The
proposal was awarded based on a revised budget submitted March 22,2004, with a start date of July 1,2004, and an
expiration date of June 30,2007.
23 The revised budget was submitted October 25,2001. Jacket documents show that at the request of the NSF
program officer, funds for the Subject's salary were removed from the revised budget in favor of retained salary for
the post-doctoral research associate.
24 The RA is [redacted] of Company 1, as described in Awards 1 and 2. The entries on this line for Award 3 are for a
"programmer," as described in the NASA proposal and award.
25 The invoice dates span July 29,2003 through December 28,2006, and cover Subject's billed hours both as senior
scientist ("scientific support") and as programmer ("programming support"), for NSF awards and for the NASA
award. TIAA-CREF contributions and other retirement-related investments, as revealed in documents received
from Company 2, may account for some of the difference between the W2 and invoice amounts in 2005 and 2006.
                                     2002          2003          2004          2005         2006        Total
                                                                                                       (NSF +
                                                                                                       NASA)
Company 2 invoices (Tab 7) to               $0    $1 14,000      $35,436     $105,658      $48,187     $303,281
Company 1 for Subject's effort
Company 2 Form W-2s for           unavailable    unavailable   unavailable   [redacted]   [redacted]   [redacted]
Subject


        The 2002-2005 Form W2s for [redacted] and the RA yield a compensation total of
$3 17,975 -- similar to the sum of compensation in approved budgets for these individuals during
this time ($309,529; see Table 1). By contrast, the amounts invoiced from Company 2 to
Company 1 for the Subject's efforts ($303,281; see Table 2) far exceed his approved and funded
salary ($60,406; see Table l), and far exceed the total value reported as salary for the Subject on
his available W2 forms. Company 2 invoices are attached at Tab 7.

        Annual and final reports submitted to NSF for Awards 1 and 2 describe increased effort
by the Subject as a result of delays and personnel issues, and include an implausible explanation
for the absence of the post-doctoral research associate.26 The reports do not disclose that the
salary funds for the post-doctoral research associate and the approved programmer were instead
paid to the Subject. Nor is the funneling of the Subject's reallocated salary through Company 1
to Company 2 disclosed. Furthermore, the change in the Subject's efforts devoted to the project
required Company 1 to notify NSF, 27 which it did not do. The claimed departure and permanent
absence of the post-doctoral research associate also required Company 1 to notify NSF,~'which
it did not do.                                                    'I3



      With regard to Subject's time and effort reporting at Company 2, on receipt of our
subpoena for Subject's time and effort reports, the President of Company 2 (in [redacted])

26 Some of these explanations - that a post-doc trained at Company 1 took a job with NCAR, that NASA funding
withered after the events of 911 1, no programmers could be found to do the programming, [redacted] was not
available after hours for the programming, and the Subject was constrained by University outside-compensation rules
in what he could do - are unconvincing. For instance, the post-doc named in the explanation actually left Company 1
five months before the beginning of Award 1. Further, our second interview with [redacted] (President of Company
1) confirms that Company 1 never attempted to replace him (notes at Tab 5). The Subject did in fact hire a
programmer for a brief time, but without informing [redacted] or Company 1.
27 From NSF Grant Policy Manual (95-26, in effect when Awards 1 and 2 were made to Company 1): "3 12.5 Change
in Person-Months Devoted to the Project. If the PIPD will devote substantially more or less time to the project than
anticipated in the proposal, helshe should consult with appropriate officials of the grantee organization and with the
NSF Program Officer. If either determines that the increased effort will substantially affect the project proposal as
approved or the reduction of effort will substantially impair the successful execution of the project, the Program
Officer should consult the NSF Grants Officer. The NSF Grants Officer may: a. request the grantee to nominate a
replacement PI/PD acceptable to the NSF Program Officer; b. initiate the termination procedures described in GPM
910, "Suspension and Termination Procedures"; or c. negotiate an appropriate modification to the grant."
28 From NSF Grant Policy Manual (95-26): "3 11.3 Significant Changes, Delays or Events of Unusual Interest
a. In the event there are problems, delays or adverse conditions that will materially affect the ability to attain the
objectives of the project or to meet such time schedules as may have been proposed, appropriate grantee officials
should notify the NSF Program Officer. b. NSF should be informed of any events of unusual interest which occur
during the course of the project. Reports, communications or photographs may be directed to the NSF Program
Officer."
contacted the Subject (on sabbatical in Australia), and asked for these records.29 The Subject
then provided his time and effort reports for the previous five years,30and these were forwarded
to us by the President of Company 2. None of the time and effort reports provided by the Subject
is signed or approved, and in his interview with us, the President of Company 2 stated that he
never examined them, and did not draw any conclusions as to their validity or reasonableness.
Therefore, the Subject's time and effort reports submitted to us by Company 2 are not in
compliance with applicable cost accounting standard^.^'

        Examination of the hours claimed raises further significant questions about the accuracy
of these reports (all of the records are attached at Tab 9). Subject's time and effort reports reflect
a concentration of claimed hours on days seemingly outside the academic year of the University
and in daily amounts and continuous days worked that are highly implausible. The records start
in December 200 1 and continue into January 2002, and then resume in May 2002. As shown in
Table 3, starting on May 12,2002, the Subject claims substantial hours devoted to research each
and every day until August 17,2002. This stretch of claimed effort extends over 98 successive
b,including weekends and the Memorial and Independence Day holidays. This three-month
period includes many days in which 18.5 hours of effort are claimed, and many successive days
with more than 12 hours claimed. The daily claimed hours are set out below for each of the 98
successive days, and summed for each week (note that only one week claimed less than 80
hours). Although Table 3 tabulates the hours claimed by the Subject for Company 2 starting in
May 2002, and the earliest records date to December 2001, we note that Company 2 was not
formed until September 2003 .j2

Table 3. Claimed time and effort for Subject at Company 2 for the indicated period

                    Sun        Mon         Tues         Wed        Thurs         Fri        Sat     Totals
Week 1               17         16         16.5         16.5        16.5        16.5         14       113
start May


29  That is, in 2007 the President of Company 2 apparently had no detailed time and effort records for the Subject's
2002-2007 effort on hand. The President of Company 2 submitted billings to Company 1 for the Subject in prior
years based on broad summaries of effort periodically provided to him in emails fi-om the Subject. The email fi-om
the President of Company 2 to the Subject is included at Tab 8.
30 We can conceive of no reason why the Subject would take five years of detailed time and effort reports with him to
Australia on sabbatical. The strong inference is that the Subject fabricated them at the time of Company 2's request
for them.
3 1 OMB Circular A-122 Cost Principles for Non-Pro$t Organization," Appendix B, Section 8.M. states that:
"Distribution of salaries and wages to awards must be supported by timesheets or personnel activity reports.
Timesheets reflecting the distribution of activity of each employee must be maintained for all staff members whose
compensation is charged, in whole or in part, directly to awards. Timesheets maintained by organizations to satisfy
these requirements must meet the following standards: 1) The reports must reflect an after-the-fact determination of
the actual activity for each employee. 2) Each timesheet must account for the total activity for which employees are
compensated and which is required in fulfillment of their obligations to the organization. 3) The timesheet must be
signed by the individual employee or responsible supervisory official having first-hand knowledge that the
distribution of activity represents a reasonable estimate of the actual work performed by the employee during the
periods covered. 4) The timesheet must be prepared at least monthly and must coincide with one or more pay
periods."
32 Articles of Incorporation for Company 2 were filed with the [redacted] Secretary of State on Sep 23 2003 (Tab 4).
        A forensic accounting summary of Subject's tabulated time and effort established, and the
cover letter stated (Tab 10): "There were instances in which time entries ranged from thirteen to
twenty-one hours a day for several weeks in a row. There were two twenty-one hours a day
entries in the time sheet covering pay periods ending 12/20/2003."

        We conclude that the Subject's time and effort reports were prepared years after the fact,
are not an accurate representation of the Subject's participation in the funded research, and are
insufficient to support Company 1's charges to NSF awards for the Company 2 effort of the
           The charges based on the reports may be an unallowable cost in the total amount of
$303,281.

       Finding 3. Company 1 failed to notify NSF of its subcontract with Company 2, and
improperly collected indirect costs on a portion of the hnds used for the Company 2 subcontracts
under Awards 1 and 2. The total invoiced amount for subcontracts to Company 2 was $303,281.

       Evidence: The existence of Company 2 as a subcontractor supported by funds awarded to
Company 1 was first disclosed to NSF in the final report for Award 1, filed on June 7 , 2 0 0 6 . ~ ~
The [redacted] (and President of Company 1) stated in our interview with him that Company 2
had been a subcontractor to Company 1 since 2001.35 Company 1 was required to notify NSF of



33 NSF Grant Policy Manual 95-26 states (section 210.a.) "Such costs must be allowable in accordance with the
applicable cost principles (e.g., OMB Circular A-21 Cost Principles for Educational Institutions or A-122 Cost
Principles for Non-Profit Organizations)." OMB Circular A-122 states, inter alia, that "To be allowable under an
award, costs must meet the following general criteria: [a-fl g. Be adequately documented" (Attachment A, section
A.2.g.).
34
   Notification to NSF occurred after initiation of the NSF OIG investigation.
35 {Redacted] made this statement in his interview with us. Interview notes are attached at Tab 5.
the subcontract, and the transfer of the Subject's participation in the research to the subcontract,
which it did not do.36

        The creation of the subcontract to Company 2 changed allowable direct and indirect costs
associated with federal awards to Company 1. As a first estimate of the effect of the undisclosed
subcontract, a forensic accounting analysis of Company 2 ledgers provided the information in
Table 4 regarding the subcontract, based on the limited financial records available for 2004 and
2005, and incomplete records for 2 0 0 3 . ~These
                                             ~    records reflect work on NSF Awards 1 and 2.
Given the inaccuracy and lack of timeliness for the Subject's time and effort reports, these billing
records may be the most verifiable records available in this limited time period. Dollar values
listed are for funds paid to Company 2 from Company 1.




Table 4. Billing records for Company 2 for 2003-2005 from financial ledgers

                        2003               2004               2005                Total            Amount
                                                                                                  exceeding
                                                                                                   $25,000
Award 1              $19,562.29           $8,353.04         $35,558.00         $63,473.33         $38,473.33
Award 2                      $0          $27,082.53         $26,117.50         $53,200.03         $28,200.03

TOTALS               $19,562.29          $35,435.57 $61,675.503* $1 16,673.36                     $66,673.36

36 NSF Grant Policy Manual 95-26 applied to Award 1 and Award 2 at Company 1 at the time the awards started in
2002. Section 3 13 states: "Contracting or Transferring the Project Effort (Subawards); a. Excluding the
procurement of items such as commercially available supplies, materials, equipment or general support services
allowable under the grant, no significant part of the research or substantive effort under an NSF grant may be
contracted or otherwise transferred to another organization without prior NSF authorization. The intent to enter into
such arrangements should be disclosed in the proposal submission. b. If it becomes necessary to contract or
otherwise transfer a significant part of the research or substantive effort after a grant has been made, the grantee shall
submit, at a minimum, to the NSF Grants Officer: 1.a clear description of the work to be performed; 2. the basis for
selection of the subawardee (except for collaborative/joint arrangements); and 3. a budget in the prescribed NSF
format for each subaward." The manual is also clear on required notifications to NSF when the PI severs his
relationship with the grantee, viz: Section 3 12.6 "Withdrawal of PIPD: In the event the named PYPD severs hisher
connection with the grantee organization or otherwise relinquishes active direction of the project, the Authorized
Organizational Representative should notify the NSF Program Officer, and either: a. initiate grant closeout
procedures through submission of final reports (GPM 342, "Final Project Report," and GPM 452, "Final
Disbursement Reporting"); or b. nominate a substitute as described in GPM 3 12.7, "Substitute PYPD." "
37 All information received by NSF OIG was in response to subpoena, but the information was determined in the
forensic accounting analysis to be incomplete.
38 We note the disparity that for 2005, the ledgers suggest that the time and effort hours for the Subject total
       Pursuant to OMB Circular A-122, the indirect cost rate can be applied only to the first
$25,000 of charges for a subcontract in the entire period of the award.39 Based on these records,
for Awards 1 and 2, with a total expenditure on the Company 2 subcontract of $1 16,673.36
through 2005, $66,673.36 is not subject to indirect costs. Therefore, at the indirect rate of
51.5%, Company 1 charged $34,337 to NSF in improperly-collected indirect costs through 2005.

        Any additional funds used for the Subject's compensation at Company 2 in 2006 and later
years are also beyond the first $25,000 of the subcontract, and are therefore also not subject to
application of the indirect cost rate by Company 1. We have no reliable information for years
2006 and beyond. However, an estimate of improperly-collected indirect costs can be deduced
by using the total funds claimed by the Subject through Company 2 for all awards and years. As
shown in Table 2, the total amount paid through the subcontract with Company 2 is $303,281.
Indirect costs may only be claimed on the first $25,000 in each of the three awards active during
the time these funds were paid. Distribution of Subject's effort among the three awards at that
level or more is the most favorable possible situation for the Subject, as it would justify
Company 1's recovery of indirect costs on the largest possible amount ($75,000) of subcontract
costs. We make that assumption ($303,281 less $75,000), which leaves $228,281 in direct costs
paid by Company 1 to Company 2 that are not subject to the indirect cost rate. Consequently, the
total amount of indirect funds improperly collected by Company 1 on all awards in all years is
$1 17,565.~'

        We conclude that Company 2 was a subcontractor to Company 1, that Company 1 failed
to notify NSF of this subcontract, and that Company 1 therefore improperly collected at least
$34,337 in indirect costs from NSF, and improperly collected an estimated total of $1 17,565 in
indirect costs on all Federal awards in the period of 2002 to the present. Both Company 1 and
Company 2 acted at the Subject's dire~tion.~'

         Finding 4. The Subject provided deceptive and incomplete information to NSF about his
affiliations with Company 1, and inaccurate information to NSF OIG about his affiliations with
Company 1 and Company 2.

        Evidence: An NSF program officer initially asked the Subject about Company 1 in 1994,
when the first proposal from Company 1 was under review. In response to the concerns of the
proposal reviewers, the NSF program officer directly questioned the Subject about the reason for
creating Company 1, and separately asked the University about the propriety of funding parallel

$61,675.50, although the W2 shows a total of [redacted]. The quality ofthe ledgers is insufficient to resolve these
discrepancies.
39 The following text is fiom OMB Circular A-122, Cost Principles for Non-ProJit Organizations, Section D.3.f.:
"Distribution basis. Indirect costs shall be distributed to applicable sponsored awards and other benefiting activities
within each major function on the basis of MTDC. MTDC consists of all salaries and wages, fiinge benefits,
materials and supplies, services, travel, and subgrants and subcontracts up to the first $25,000 of each subgrant or
subcontract (regardless of the period covered by the subgrant or subcontract). Equipment, capital expenditures,
charges for patient care, rental costs and the portion in excess of $25,000 shall be excluded fiom MTDC."
40
   Company 1 is essentially defunct and unable to return funds.
41
   Finding 1 of this report.
(and apparently overlapping) work through both the University and Company 1, and thereafter
made the award.42 The NSF program officer again asked the Subject about Company 1 in
1 9 9 8 : ~"2.
            ~ Assuming any statements about university and company salary andfiinge level
benefits are correct, please justifi the differences, that is, what more do you do through your
company per month that you do not do through your university? Please also provide your fiinge
benefits amount/month at [University]. "

        The Subject responded by email on June 11, 1 9 9 8 : ~"Before
                                                                 ~      proceeding to your specific
questions, I should clarzfi some of the points raised in your letter. First the organization which
is referred to as 'your company' is, in fact, not. [Company I ] is not aprivate firm, nor one in
which I am even an officer. It is one of three firms with which I interact. "45

          The Subject states that he is "not even an officer" in Company 1. The Subject did not
inform the NSF program officer of his role in Company 1 as one of three members of the Board
of ~ i r e c t o r sa, founder
                       ~~      of the Company, an active participant, and its primary financial
beneficiary. The Subject did not inform the NSF program officer that the President of Company
1 was [redacted], or that the SecretaryITreasurerof Company 1 was [redacted]. The Subject did
not inform the NSF program officer that Company 1 acted at his direction. By any reasonable
standard, the Subject's statement was intentionally devised to deceive the NSF program officer.

       Additional inaccuracies appear in the Subject's response letter to this office of March 16,
2005 (Tab 2), as described here in his statements 1-4:

       Statement 1: The Subject made the following statements about his work at Company 1:47
"As to my reciprocal involvement at [Company :I.],it concentrates on research that would not be
performed at the University." The University states in its investigative memo that there is no
impediment to carrying out at the University the type of research that the Subject claims is done
at Company 1.48 The Subject's submission of the same proposed research fiom Company 1 and
the University, that is, the original allegation that began this investigation, contradicts the
Subject's claim.


42 The NSF Program Officer contacted the Director of Contracts and Grants, according to a memo dated 0410 1/94
placed in the proposal jacket for [redacted]. "Icalled [name], Director, Ofice of Contracts and Grants. I . Faculty
are allowed I day per week outside (of university environment) work (so called one out of six days rule) 2. There is
no requirement for faculty to report to university about 'Iprivate"proposa1s. 3. Beyond the I out of 6 rule, there is
no overallpolicy, although each unit may have its own. " The response fiom the University official was apparently
sufficient to convince the Program Officer that an award could be made to the Subject at Company 1. The first
award to Company 1 ([redacted]) was made Mar 24 1995. This inquiry to the University by an NSF program officer
did not apparently raise any concerns at the University about the subject's outside activities.
43 This email exchange is documented by paper copies in the program jacket for [redacted], a proposal submitted to
NSF by the Subject and [redacted] from Company 1.
44 Subject to Program Officer email Jun 11 1998 (Tab 11).
45 The Subject did not mention the other two f m s . Subject's disclosures to the University fiom this time show no
other firms with which the Subject interacts.
46 The Directors for Company 1, including the Subject, are listed in the Articles of Incorporation at Tab 4.
47 Subject's response Mar 16 2005, page 3 (Tab 2).
48 University investigation memo Oct 17 2006, page 7 (Tab 13).
        Statement 2: The subject stated:49"Equipment loaned by [Company 11 has made it
possible for the university program to explore computational advances . . . ." {Redacted] stated
in our interview with him that, without University knowledge and not as part of a mutual-benefit
loan arrangement, Company 1 equipment was sited on the University campus and attached to
University computing systems.50

       Statement 3: The subject stated:" "[Company 11 affords employment opportunities for
university students and graduates (one currently pending)." [Redacted]. Company 1 records
(beginning in 2002) evidence no support for university students. The annual and final reports for
Awards 1 and 2 do not describe any undergraduate or graduate student involvement with research
at Company 1.

        Statement 4: The Subject stated that he "performs consulting through [Company 21."'~
This statement is false; the Subject is the only employee of Company 2,53and Company 2 exists
only to act as a subcontractor to Company 1.54 In the same paragraph, to further explain his
statement (discussed above) to the NSF program officer that Company 1 was only one of several
companies with which he interacts, the Subject listed other companies with which he has
interacted as a consultant on high-speed computing - [~edacted]." However, the Subject has
not served as PI on proposals to NSF from these companies, as he has with Company 1. We note
that [redacted] ceased operations in April 2001, that is, approximately four years before Subject
prepared his response to the NSF OIG letter. Subject provided no documentation for any of these
claimed interactions, and notes that his consulting to all of these companies was provided
"without ~om~ensation."'~    No connection with the Subject's research at Company 1, or
analogous "consulting" arrangement, is apparent.

        We conclude that the Subject's deception was part of a long-standing pattern. We
conclude that the Subject intentionally provided deceptive information to the NSF program
officer about his affiliations with Company 1, and false and deceptive information to NSF OIG
about Company 1 and Company 2.57

       Finding 5. The Subject provided deceptive or misleading statements to the University on
his conflicts of interest forms and financial disclosure forms, and provided false and deceptive
information to the University during the investigation about his additional external remuneration
and potential conflicts of interests.



49
   Subject's response Mar 16 2005, page 3 (Tab 2).
50 Notes for the interview are at Tab 5.
5' Subject's response Mar 16 2005, page 3 (Tab 2).
52 Subject's response Mar 16 2005, page 4 (Tab 2).
53 Subject is listed as a part-time employee on Company 2 records.
54 The purpose of Company 2 is established both through the Subject's own statements to the University (vide infia)
and our interview with the President of Company 2.
55 Subject's response letter Mar 16 2005, page 4 (Tab 2).
56 Subject's response letter Mar 16 2005, page 4 (Tab 2).
57 False statements made by the Subject in this OIG investigation potentially violate 18 USC 9 1001.
        Evidence: The University examined the standing record of previous conflicts of interest
and financial disclosure forms filed by the Subject. 58 As the University investigation
commenced, it became apparent that the information provided by the Subject was incomplete and
inaccurate. As the University investigation proceeded, and the level of the Subject's cooperation
de~lined,~' University administration ordered the Subject to provide information pertinent to his
outside remuneration. Accordingly, the Subject provided a document to the University dated
July 26,2006.~' The Subject did not disclose his affiliation with Company 2,61nor did he
disclose that he received substantial compensation through Company 2 originating in the federal
awards to Company 1. Instead, the Subject disclosed to the University only the compensation
received directly from Company 1. Table 5 compares the amounts disclosed to the University by
the Subject that he received from Company 1, and the amount paid to the Subject by Company 2
(data from Company 2 records), and illustrates the magnitude of the Subject's deception of the
University.




Table 5. Subject's compensation from Company 1 disclosed to the University (Jul26 2006)
versus actual compensation received through Company 2

       Year             Period                  Company 1                 Actual
                                                compensation              compensation (thru
                                                disclosed to University   Company 2) *
       200 1            Sept-Dec                                  $5,876
       2002             Jan-Dec                                   $4,157
       2003             Aug-Dec                                  $35,054
       2004             Jan-Dec                                  $1 1,691         $35,435.57
       2005             Jan, Sept-Dec                             $4,7 15         $61,37610
         *Values estimated from Company 2 accounting records obtained under subpoena; earlier year records are incomplete




58 We received copies of these disclosures, and they are available for inspection.
59 University investigation memo Oct 17 2006, page 4 (Tab 13).
60 Subject disclosure to University Jul26 2006 (Tab 12).
   In the July 26,2006 disclosure (Tab lo), the Subject writes "[Company 21: Personal corporation through which
my consulting is paid and which represents interests in financial investments that are unrelated to scientific work."
In another document dated February 2006, and provided to the University, the Subject writes "[Company 21:
Personal corporation representing my interests in financial investments that are unrelated to scientific work." We
note that if Company 2 were indeed a personal corporation dealing with financial investments "unrelated to scientific
work," it would not then be a suitable subcontractor for completing research funded at Company 1 because Company
2 itself would have no scientific expertise.
       The University investigation examined disclosure documents and compared information
received during interviews with the Subject and [redacted]. A summary memo prepared for the
ongoing University investigation62stated, "There is a significant disparity between the amounts
[Subject] discloses to the University as compensation received from [Company 11 and the
amount specified in his invoices to [Company 11, as well as [Company I] tax documents as
having been paid to him." Table 6 represents the University's perspective of the Subject's
deceptive disclosures, and reflects the fact that values provided to the University by Company 1
included the amount that the subject received through Company 2.

Table 6. Summary of Subject's compensation prepared by the University during its
investigation

       Year*              Subject's disclosed Company 1's stated                  Difference** *
                          compensation63       compensation**
       2003                          $35,054         $1 13,999.79                      $78,945.79
       2004                          $1 1,691         $35,435.57                       $24,663.57
       2005                            $4,7 15        $40,232.50                       $35,517.50

         * Presumably a calendar year
         ** Presumably from documents provided by Company 1 to the University
         *** The difference is probably related in part to the Subject's compensation through Company 2
       The numbers provided by the Subject to the University do not reconcile with the numbers
derived from our analysis of the ledgers of Company 2 (Table 5), nor do they reconcile with the
numbers provided to the University by Company 1. Persistent imprecision in values for the
Subject's compensation is a consequence of both a lack of proper accounting and incomplete and
inaccurate disclosures by the Subject.

        The Subject claimed in his response letter to NSF O I G (Tab      ~ ~ 2) that he was unaware of
the requirement for conflicts-of-interest disclosure to the University, and that such disclosure is
not germane as he is not a full-time employee of the University. Despite this claim, the Subject
was in fact making some disclosures (albeit inaccurate disclosures) to the University. The
University confirmed65that the Subject was a full-time employee. The University also provided
a document from a faculty meeting held September 1,2004 in the Subject's department to
discuss the University policy for external r e m u n e r a t i ~ n .As
                                                                    ~ ~a consequence of that meeting,
appropriate forms were given to every departmental faculty member. The University established
that the existence of the relevant policies, and the appropriate procedures needed to comply with
them, were known to every faculty member, including the Subject. This contradicts the Subject's
claim that he was unaware of the need for disclosure.



   University investigation memo Oct 17 2006 (Tab 13).
   These values are also in Table 5 as amounts disclosed to the University by the Subject.
   Subject response of Mar 16 2005, page 4 (Tab 2).
65
   University investigation memo Oct 17 2006, page 3 (Tab 13).
66 Attached at Tab 14.
         The University is required by N S F to ~ ~have an appropriate written and enforced policy
on conflicts of interest, including financial disclosures. The University does have such a policy,
and the University confirmed that the Subject's disclosures were required.68 The University
concluded that the Subject failed to make the required disclosures with respect to NSF awards
made to Company 1, and that the disclosures he did make were i n a ~ c u r a t e .The
                                                                                  ~ ~ University also
concluded that the Subject failed to make accurate disclosures with respect to his compensation
from outside sources.70 The University noted in its memorandum of investigation that the current
issue is the second investigation into the Subject's allegedly inaccurate disclosure^.^' The
University took interim administrative actions against the subject," and was preparing for
disciplinary proceedings when the Subject resigned his faculty position.

        We conclude that the Subject's failure to disclose required information to the University
was an intentional attempt to disguise his involvement with Company 1, and also with Company
2. Further, we conclude that the limited disclosures made by the Subject to the University were
intentionally inaccurate and misleading, in violation of University policy.

       Finding 6. The Subject and [redacted] failed to disclose on the cover page, and in the
Current and Pending Support declaration, of a proposal submitted to NSF that a substantially
overlapping proposal had earlier been submitted to another federal agency.

       Evidence: In review of submitted proposals, NSF program officers consider potential
overlap of the proposed work with work funded, or under consideration, by other funding
agencies. NSF and other agency program officers depend on accurate disclosures about all other
funded and submitted proposals so that they can revise (if necessary) the scope of projects
recommended for funding to avoid overlap. Accordingly, the cover page of an NSF proposal
contains a check box associated with the question "Is this proposal being submitted to another

67  See, for example, the relevant section in the Grants Policy Manual 95-26 (applicable to the start date for Awards 1
and 2): "5 10 CONFLICT OF INTEREST POLICIES a. NSF requires each grantee institution employing more than
fifty persons to maintain an appropriate written and enforced policy on conflict of interest. Guidance for such
policies has been issued by university associations and scientific societies. b. An institutional conflict of interest
policy should require that each investigator disclose to a responsible representative of the institution all significant
financial interests of the investigator (including those of the investigator's spouse and dependent children) (i) that
would reasonably appear to be affected by the research or educational activities funded or proposed for funding by
NSF; or (ii) in entities whose financial interests would reasonably appear to be affected by such activities. c. An
institutional policy must ensure that investigators have provided all required financial disclosures at the time the
proposal is submitted to NSF. It must also require that those financial disclosures are updated during the period of
the award, either on an annual basis, or as new reportable significant financial interests are obtained. d. An
institutional policy must designate one or more persons to review fmancial disclosures, determine whether a conflict
of interest exists, and determine what conditions or restrictions, if any, should be imposed by the institution to
manage, reduce or eliminate such conflict of interest. A conflict of interest exists when the reviewer(s) reasonably
determines that a significant financial interest could directly and significantly affect the design, conduct, or reporting
of NSF-fbnded research or educational activities."
   University investigation memo Oct 17 2006, page 4 (Tab 13).
69 University investigation memo Oct 17 2006, pages 3-4 (Tab 13).
70
   University investigation memo Oct 17 2006, pages 3-4 (Tab 13).
71 University investigation memo Oct 17 2006, page 4 (Tab 13).
72
   University officials indicated in a phone conversation that the University suspended the Subject's privilege of
submitting proposals £rom the University, and restricted Subject's access to research facilities on campus.
federal agency?"73 The Current and Pending Support declaration page asks that all current and
pending proposals be described with a description of the PI or [redacted] effort associated with each.

        Our assessment of the proposals74shows that almost half of the proposed research was
duplicated. The Subject and [redacted] authored both proposals; the proposal to the other
Federal agency was submitted from the Subject's University, and the proposal to NSF was
submitted from Company 1. This duplication in proposed research directly contradicts the
Subject's repeated claims to us, and the University, that he performed independent and distinct
research at the University and at Company 1 (see Subject's response letter at Tab 2 and the
University investigation memo at Tab 13). The Subject states that the lack of disclosure was an
"oversight."75

       We conclude, in light of the other evidence gathered during this investigation, that the
Subject's non-disclosure was purposeful, with the potential to lead to duplicative funding and
duplicative reporting of research results.

111.    OIG's Assessment

        We substantiated the Findings described in section 11, based on a preponderance of the
evidence. The most egregious act of misconduct is the deficient and likely fraudulent preparation
of the Subject's time and effort reports for Company 2. However, the Subject's actions over a
period of years displays a pattern of deception, a lack of integrity, and a persistent and intentional
disregard of NSF and University rules and policies. The evidence supports our conclusion that
the involvement of the Subject in those acts was intentional and knowing, and undertaken to
obtain additional earned and unearned compensation beyond reasonable amounts, conceal his
involvement in Companies 1 and 2 from the University, and deceive NSF and other agencies
about his relationship with Companies 1 and 2 and about award-related activities.

      Summarized below are the specific findings of our investigation forming the basis for our
recommended action, following the order established in Section 11.

Finding 1: The Subject directed the activities of [redacted] and the President of Company
2, and the actions and operations of Company 1 and Company 2.

        The Subject is synonymous with Company 1 and Company 2, which are essentially shell
companies created by the Subject that allowed him to divert funds from approved uses without
notice or accountability, and to shield Subject's income from public disclosure.

Finding 2. Compensation paid to the Subject through Company 2 grossly exceeded the
amount in the approved budgets of the federal awards, and was diverted to the Subject
from approved uses without notice to program officers. The Subject fabricated time and

73 The NSF Grant Proposal Guide (NSF 04-23) states (Section II.C.2.A.): "Should any of the listed items on the
proposal Cover Sheet apply to a proposal, the applicable box(es) must be checked."
74 [Redacted]. The proposals (with identical text highlighted) are at Tab 3.
75 Subject's response letter Mar 16 2005, page 2 (Tab 2).
effort reports to support receipt of this compensation.

        Subject's compensated effort was specifically removed from the approved budget of
Award 1 by an NSF program officer in favor of retaining funds for a post-doctoral research
associate. A later after-the-fact report to NSF for the Award includes a specious explanation for
the absence of the post-doctoral researcher, and disguises the fact that the funds were diverted
instead to the Subject through Company 2. Subject fabricated his time and effort reports for
Company 2, and ultimately received approximately five times his approved compensation.

Finding 3. The Subject and Company 1 failed to notify NSF of the existence of a
subcontract on active awards, the participation of the Subject exclusively through that
subcontract, and the unallowable collection by Company 1 of indirect costs on a portion of
the direct costs of that subcontract.

       Company 1 transferred Subject's efforts on research awards to a subcontract with
Company 2 in violation of NSF's rules and regulations. Consequently, we estimate that
Company 1 collected approximately $1 17,565 in unallowable indirect costs on three federal
awards.

Finding 4. The Subject knowingly made false and deceptive statements to NSF and NSF
OIG about his affiliation with Company 1 and Company 2, and about the administration of
NSF awards.

        Subject deceived the NSF program officer at the time when his first proposal from
Company 1 was being considered for funding by failing to accurately disclose his involvement
with Company 1 and the reason it was created. Subject made inaccurate statements to NSF OIG
about Company 1 and his involvement with Company 2. Subject's explanation to NSF about the
absence of post-doctoral participation in Company 1's final two NSF awards was created to hide
the fact that all the funds to support the post-doctoral research associate were instead paid to the
Subject through Company 2.

Finding 5. The Subject repeatedly made false and misleading statements to the University,
and failed to abide by its established policies on conflicts of interest and financial
disclosures.

        The Subject, over a period of many years, provided incomplete and false information in
disclosures made to the University about outside interests, activities, and remuneration, provided
false information during the University investigation, and ultimately declined to cooperate with
the University investigation. The Subject resigned from his faculty position before final
University adjudication.

Finding 6. The Subject submitted significantly overlapped proposals to two Federal
agencies, and failed to disclose the previous submission to NSF.

       The Subject submitted proposals with overlapped research objectives to two different
federal agencies, with one submitted from his University and one fiom Company 1. Although
neither proposal was funded, this created the potential for receipt of duplicate funds for the same
research. This is a recent example of the Subject's persistent failure to make truthful disclosures,
and to disguise the extent of funds that could be used for his personal benefit.

      Subject's actions as delineated in each Finding summarized above were taken to
maximize his personal financial compensation, and to shield the extent of his compensation
from discovery or accountability.

IV.      Recommendations

         We recommend that NSF debar the Subject for a period of five years. NSF has the
authority to debar an individual for "violation of the terms of a public agreement or transaction
so serious as to affect the integrity of an agency program."76 Such a violation occurs when the
individual commits a "willful violation of a statutory or regulatory provision or requirement
applicable to a public agreement or tran~action."~~   Furthermore NSF has the authority to debar
an individual for other causes, including when a cause is "of so serious or compelling a nature
that it affects [the subject of the debarment action's] present responsibility."78

        Applicable federal regulations, ONIB Circulars, and NSF award conditions mandate that
awardees adhere to specific rules for spending federal award funds, including: (1) keeping
adequate records of expenditures; (2) maintaining control over and accountability for all funds,
property and assets; (3) following written procedures for determining the reasonableness,
allocability and allowability of costs; and (4) keeping accounting records supported by source
d~cumentation.~~    As documented in this investigation, and summarized above in Section 11,
specifically in the case of two NSF awards to Company 1, neither the Subject nor Company 1
adhered to applicable federal regulations and policies that govern NSF awardees. Additionally,
the Subject created a shell corporation (Company 2) 80 with the purpose of preventing direct
disclosure of the improper diversion of funds paid by NSF to Company 1.

       This investigation has concentrated on the final two NSF awards made to Company 1,
and the actions of the Subject, Company 1 and Company 2 in the years since 200 1. We have not
requested detailed financial records fiom Company 1 for prior years. NSF made two awards to
Company 1 prior to 2001 .81 A lack of compliance with applicable federal rules and regulations
may be evident in the financial administration of these prior awards.


76 2 CFR 5 180.800 (b) as implemented by 2 CFR part 2520.
77 2 CFR 5 180.800 (b)(3).
78 2 CFR 5 180.800 (d).
79
   2 CFR. 5 2 15.21 (which codified OMB Circular A- 110, Unform Administrative Requirementsfor Grants and
Agreements with Institutions ofHigher Education, Hospitals, and Other Non-Profit Organizations); Grant General
Conditions (GC- I), Section 1, "Awardee Responsibilities and Federal Requirements."
   [Redacted] in his interview with us describes Company 2 as a "shell corporation." The President of Company 2 in
his interview with us states that Company 2 was created at the request of the Subject. The interview notes for both
[redacted] and the President of Company 2 are at Tab 5.
   [Redacted].
        We conclude that the Subject has engaged in a long-running course of deceptive conduct
involving both his University and NSF. His conduct reflects a consistent willingness to violate
rules and regulations, whether federal or local, for his personal benefit. This supports a finding
that the Subject is not presently responsible, and we recommend that he be debarred for five
years. The debarment regulation allows a Federal agency to impute the behavior of an individual
to an organization.82 Accordingly, NSF may also choose to debar Company 1 and Company 2,
based on their identity with the Subject, their extensive non-compliance with NSF regulations,
and their imputed inability to properly administer an award or a subcontract involving NSF
funds.

        In debarment actions, the burden of proof lies on the acting agency (NSF) to demonstrate
by a preponderance of the evidence that cause for debarment exists.83 In this case, the
preponderance of evidence clearly indicates that the Subject knowingly and intentionally violated
the terms of a public agreement (two NSF awards made to Company 1, which the Subject
directs) by violation of the requirements for proper administration of a grant, as described in
NSF's regulations and manuals. In addition, the preponderance of evidence shows that the
Subject knowingly and intentionally took actions to disguise this violation from disclosure, and
provided false and deceptive information to University and NSF investigators in an attempt to
further the adumbration. The Subject has engaged in acts sufficiently compelling and serious to
conclude that his present responsibility to manage Federal funds has been compromised.84

        The debarment regulation lists 19 factors that the debarring official may consider.85
Listed below are the factors pertinent to this case, and our evaluation of each.

          1. Harm causeda6

        Company 1 improperly collected indirect costs on the subcontract issued to Company 2.
These improperly collected indirect costs were derived from two NSF awards and one NASA
award to Company 1. The total estimate of improperly collected indirect costs is $1 17,565.
Since the Subject's compensation through Company 2 was based on fabricated time and effort
reports, the charges based on the reports may also be an unallowable cost in the total amount of
$303,281.

          2. Frequency of incidents and duration of wrongdoinga7

       The Subject's pattern of non-disclosures and deceptive statements to his University
extends back to 1994, when Company 1 was first formed, and continues to the present.
Similarly, the Subject's deceptive statements to NSF extend back to 1994 and from there through



     2 CFR 5 180.630(a).
83   2 CFR 9180.850 and 2 CFR $180.855.
84   2 CFR 5 180.800(d).
85   2 CFR $180.860.
86   2 CFR 5 180.860(a).
87   2 CFR 5 180.860(b).
2006, the date of the final reports on Company 1's last two NSF awards, and the Subject's
response to a letter from this office.

          3. Prior history of wrongdoing88

       The University investigation memo notespga previous investigation into misleading
information provided by the Subject on University disclosure forms.

          4. Extent of Subject's planning of the improper actionsg0

       The Subject founded Company 1, which competed with his own University for research
funding. The Subject later founded Company 2, which subcontracted with Company 1, to
disguise the extent of his income derived from federal research awards to Company 1. The
Subject directed all actions of Company 1 and Company 2. The Subject and these companies are
synonymous.

          5. Cooperation with the investigations9'

       The University states that the Subject failed to cooperate with their in~esti~ation.'~
                                                                                          The
Subject's responses to a letter from this office were inaccurate and incomplete.

          6. Pervasiveness of improper actions in the o r g a n i ~ a t i o n ~ ~

        The Subject is synonymous with Company 1 and Company 2. The Subject's actions
inevitably pervade both company 1 and Company 2. Company 1 had no research support other
than that described in this report. Company 2 had no research activities other than to act as a
conduit for the Subject's invoices to Company 1.

          7. Position held by the individual in the o r g a n i ~ a t i o n ~ ~

       The Subject was a founding member of the Board of Directors of Company 1. The
Subject is listed as a "part-time employee" of Company 2. However, Company 2 was formed at
his behest, is directed solely by him, and acts to further his personal financial interests.

          8. Internal controls in place to prevent improper acts9'

      Lack of internal controls within Company 2 is evident, extending to the lack of an
accountable time and effort reporting system, and lack of documentation related to the

88   2 CFR $180.860(c).
89   University investigation memo Oct 17 2006, page 4 (Tab 13).
90   2 CFR § 180.860(f).
91   2 CFR § 180.860(i).
92   University investigation memo Oct 17 2006, page 8 (Tab 13).
93   2 CFR $180.860(i).
94   2 CFR $180.860(k).
95   2 CFR $180.860(p).
subcontract from Company 1. Similarly, Company 1 lacked many internal controls requisite to
proper oversight and compliance with NSF regulations in the proper administration of an award.

         9. Organizational action96

        During the course of the investigation, [redacted] took actions to increase the
accountability of Company 1 in the administration of the subcontract with Company 2. These
actions included notification to program officers at NSF and NASA about the existence of the
subcontract, and the imposition of timely administrative requirements on Company 2. The
Subject strenuously objected to these actions, and subsequently claimed "mismanagement" on
the part of [redacted.].97

         10. Other factors98

        The Subject's focus on his personal financial gain conflicted with accountability and
disclosure requirements, both to the University and to NSF. When these conflicts were
uncovered during the investigation, the Subject's response was to continue and expand his
pattern of deception and obfuscation, and to begin personal attacks on his former colleagues.99




96 2 CFR §180.860(r).
97 Subject letter to [redacted] Feb 19 2006 (Tab 15).
98 2 CFR § 180.860(s).
99 [Redacted] stated in an interview in April 2008 that the Subject blames him for the University and Federal
investigation, even though the Subject directed all actions of Company 1 and Company 2, and received the fmancial
benefits of the malfeasance. [Redacted] asserted that the Subject's actions have made it difficult for [redacted] to
fmd other employment in the area.
V.         Subiect's Response to draft Report of Investigation

        We sent a draft copy of this report of investigation to the subject at his current address in
Australia by ~ e d ~ x . " It
                           ' was returned with the notation "Customer not available or business
closed." We then sent an email to two personal email addresses for the ~ u b j e c t , ' ~sent
                                                                                           ' an email
to the address listed for the Subject as a faculty memberlo2in Australia, and left a phone message
on the Subject's university telephone. Approximately one month after our email message was
sent, we received a response from the Subject from one of the email addresses (Tab 16). On our
request, the Subject later provided a physical address for report delivery, and we forwarded a
copy of the report and the attachments for comments.

         We received comments from the Subject via email on February 8,2009 (Tab 17). The
Subject denies that Company 2 acted as a subcontract to Company 1,Io3on the basis that there
was no change in personnel or facilities, and claims that Company 1's actions were the
responsibility of the President of Company 1lo4 (although Subject was PI on all NSF awards to
Company I), and he claims that it was only through his own efforts that Company 1 completed
NSF-sponsored research.lo5 Circular A- 122 limits the recovery of indirect costs on subcontracts
because of the reduction in the administrative burden associated with the subcontracted activity,
and the presence or absence of continuity as to personnel or facilities is not directly relevant to
this rationale. The important point here is that Company 1 no longer had to maintain time sheets
for Subject, or administer payroll taxes or tax withholding, or manage retirement accounts, or
other such matters. It merely had to receive, process and pay invoices. The substitution of
Company 2 for Subject substantially eased Company 1's administrative burden, and so the
substitution is properly interpreted as a "subcontract" for purposes of allocation of indirect costs.
The recovery by Company 1 of indirect costs associated with payments to Company 2 is
therefore properly limited to the first $25,000 of such payments on each subcontract under the
various awards.

        The Subject also claims that his time and effort reports supporting the invoices of
Company 2 are accurately prepared and were not created years after the fact, as evidenced by
differences in format and paper size before and after January 2007 (when Subject was
overseas).lo6 Subject does not, however, explain why the President of Company 2 could not
locate the pre-2007 reports in June 2007 (Tab 8), or why there are no third-party validating
signatures or other authenticators on forms that are otherwise generic in appearance. Subject
further claims that funds derived from indirect costs were used for maintenance of "facilities on
which the research had to be performed."107According to Company 1's available IRS Forms
990, the rental of office space and depreciation of computer equipment never amounted to more
than about $23,000 in any given year, which is substantially less than its indirect cost collections
loo
      The address is from case documents for an action the Subject has filed against [redacted].
lo'   [Redacted].
'02   The Subject is listed in December 2008 as Professor [redacted].
103
      Subject's response, page 1 (Tab 17).
Io4   Subject's response, page 2 (Tab 17).
      Subject's response, page 2 (Tab 17).
Io6   Subject's response, page 4 (Tab 17).
'07   Subject's response, page 5 (Tab 17).
from federal awards.

        Subject asserts that NSF reporting requirements did not apply to Company 1 and
Company 2 and their actions under NSF awards.lo8 Subject claims that Company 1 was directed
by a "separate board and officers" and that "Subject was but one of several board members."10g
Minutes of the Board of Directors meetings for Company 1 (Tab 6) document the Board's
distance and the Subject's primary direction. Subject claims110to have submitted a preliminary
proposal to NSF jointly with              NSF records do not support this claim. Finally, with
respect to proposals submitted concurrently to two Federal agencies, Subject claims"' that "the
two proposals referenced were not to perform the same research." Direct examination of the
proposals (Tab 3) shows duplication in the sections on proposed research.

        We also received a letter from the lawyer who is representing Subject in a legal action
against the university.'12 The lawyer does not claim to represent the Subject in the current
matter. The letter reiterates basic- denials, objections, and statements made in the Subject's
response to the draft report, adding that Subject did most of his work from home via remote
access, which unfortunately cannot be proven because the computer logs of such access are
"among the files that [University] seized and has refused to release."' l3 The lawyer further
asserts that Subject's colleagues could verify his work hours, but were never contacted by OIG.
The lawyer does not explain how computer logs for remote access to a computer system used to
do work on non-University awards could have been among Subject's possessions in his
University office space and no longer accessible to Subject. The lawyer likewise fails to explain
which colleagues (other than those already questioned by OIG)could have been in a position to
verify Subject's work fiom his home on non-University business.

           We made no changes to the body of the report.




108
      Subject's response, pages 3-4 (Tab 17).
log   Subject's response, page 5 (Tab 17).
"O    Subject's response, page 6 (Tab 17).
ill
      Subject's response, page 5 (Tab 17).
      Robert Liechty of Cross and Liechty, P.C. The letter is attached at Tab 18.
      Counsel's response, page 3 (Tab 18).
                                   NATIONALSCIENCE FOUNDATION
                                        4201 WILSON 6OULEVAR.D
                                       ARLINGTON, VIRGINIA 22230




                                          AUG 1 3 2009
      OFFICE OF ME
     DEPUTY
       . . DIRECTOR




 VTA REGISTERED.MAIL
 Dr. Murw S.alby




Dear Dr. S,alby

As the attached report fiom the Nat
General (."OIG") indicates, in 2003,
proposal to NSF for which you wa
hct that you were the PI on a substantiaIly similar proposal that had been submitted previously to
another Federal agency, you did not infomNSF of this k c t at the time of your proposal
submission. A subsequent OIG investigation revealed that you had violated or disregarded
various other Federal and NSF award administration requirements and University policies related
to conflicts and outside                                            misled both NSF and your
Universi@ as to material ficts about                        and other matters relating to NSF
awards.

In light of your misconduct, this letter serves as fbrmal notice that the National Science
Foundation ("NSF') is proposing to debar you fiom directly or indirectly obtaining the benefits of
Federal grants for a: period of three years. Durirrg your period of debarment, you will be
prkcluded from receiving Federal £inancia1 and non-financial assistance and beneiits under non-
procurement Federal programs and activities. In addition, you will be prohibited from receiving
any Federal contracts or approved'snbcontractsunder the Federal Acquisition Regulations
("FAR"). Lastly, during your debarment period, you will be barred h m having supervisory
responsibility, prLmary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.
                                                                                              Page 2
 Regulatory Bask for Debamrent

 Pursuant to 2 CFR 180.800, debarment may be imposed for:

         (b)    Violation of the terms of a public agreement or transaction so serous as to affect
                the integrity of an agency program, such as -

                (1)     A willfirl failure to perform in accprdance with the terms of one or more
                        public agreements or transactions; or


                (3)    A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction
         ....

        (d)     Any other cause of so serious or ~ o & ~ e l lai nature
                                                                 n ~ that it affects your present
                responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, as reflected in the OIG report, you
engaged in si@cant and wide-ranging misconduct that demonstrates you are not presently
responsible. Thus, your actions support a cause for debarment under 2 CF'R 180.800(b) and 2
CFR 180.800(d).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating iictors set forth in 2 CFR 180.860, we are proposing debarment for a period of
three years.

Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under these regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive fill
consideration and may lead to a revision of the proposed.disposition. IfNSF does not receive a
response to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
                                                                                          Page 3
 Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
 Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations on
 non-procurement debarment and FAR Subpart 9.4.

 Should you have any questions about the foregoing, please




                                                    Sincerely,




                                                    Cora B. Marrett
                                                    Acting Deputy Director


Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations



cc:    Robert M. Liechty
       Cross & Liechty, PC
       Ste. 900
       400 S. Colorado Blvd.
       Denver, CO 80246
       (w/out b e s t igative Report)
                                  NATIONALSCIENCEFOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




      OFFICE OF THE
    DEPUTY DIRECTOR




 VIA ELECTRONIC MATL AND FIRST CLASS MAIL




        Re: Debarment

 Dear Dr. Salby:

On August 13,2009, the National Science Foundation ('WSF") issued to you a Notice of
Proposed Debarment, in which NSF proposed to debar you from directly or indirectly obtaining
the benefits of Federal grants for a period of three years. The Notice sets forth in detail the
circumstances giving rise to NSF's decision to propose debarment. In the Notice, NSF provided
you with an opportunity to respond to the proposed debarment.

On October 20,2009, you and Robert Liechty, your legal counsel on a separate matter, filed a
timely response to the Notice. In this response, you urged NSF to withdraw its proposal for
debarment because you claimed you did not commit the majority of the misconduct referenced in
the Ofice of Inspector General's ("OIG") investigation report. In addition, to the extent you did
commit any misconduct, you assert that debarment is too severe a sanction, and is not
commensurate with the misconduct in which you engaged. As detailed below, I am not
persuaded by your arguments.

At the outset, I note that many of the arguments that ,you raise in your October 20 response were
raised with NSF prior to its issuan'ce of the August 13,2009 Notice of ~ropbsedDebarment.
NSF fully consideredthese arguments prior to issuing this Notice, and d e t e h e d them to be
unpersuasive. We do, however, feel compelled to address thethree arguments highlighted by
Mr. Liechty in his cover letter to your response.

First, Mr. ~ i e c havers
                     t ~ that you did not receive excess compensation for the work that you
performed in connection with the grant. Rather, he claims that you were forced to perform the
work that other personnel failed to perform, and that you did so at a reduced rate of
                                                                                                    - 2 -
     compensation. Although he acknowledges that you did not receive pre-approval for doing the
     work of your assistants when they left the project, he suggests that this is a technical violation
     that does not merit a sanction.

.    We disagree. In accordance with NSF policy, you were obligated to notify NSF about the
     significant change in the extent of your efforts toward the project as soon as you realized that the
     positions of research associate and programmer would not be filled for the duration of the grant.
     As a grantor of Federal funds, NSF has the responsibility to ensure that grant finds are being
     expended appropriately. To carry out this responsibility, NSF must approve any substantive
     change in personnel related to the proposal. Your failure to notify NSF of this significant change
     preirented NSF from canrying.outits obligation in connection with the Federal fisc. Thus,the
     characterization of your actions as a mere "technical violationyygrossly understates the import of
     your misconduct with respect to this issue.

                                                         t that the indirect costs recovered by
                                                          company that you formed in 1994, from
                                                         2003, were proper. You claim that the indirect
                                                        awarded in the grant and,
     $25,000 cap on indirect costs is inapplicable. The cmx of your argument is that
     simply the entity name for you and, therefore, all of the indirect costs that


                                                                                             w
     valid.

     Once again, we disagree. The                                              not reference
                                                                                         this proposal.
                                                                               ,but opted not to do so.

                                                                        belies your assertion that there
    is no discernable difference between you and

    Lastly, Mr. Liechty expresses the view that NSFwill not seriously consider your position. This
    is simply not true. In fact, NSF opted to propose your debarment for three years, as opposed to
    the five-year debarment period initially recommended by the OIG, because of the concerns you
    raised regarding the preliminary finding that you prepared inaccurate and fraudulent time and
    effort sheets. You asserted that there was insufficient evidmce to support this allegation and,
    after a careful review of the evidence in the record, we agreed.

    As noted in the OIG's investigative report, our Notice of Proposed Debarment, and this Notice,
    however, NSF has determined that you engaged in a series of actions that demonstrates you are
    not presently responsible. Thus, I am issuing this Notice of Debarment.

    Accordingly, you are debarred until August 13,2012. Debarment precludes you from receiving
    Federal financial and non-financial assistance and benefits imder non-procurement Federal
    programs and activities unless an agency head or authorized designee makes a determination to
                                                                                            - 3 -

 grant an exception in accordance with' 2 CFR 180.135. Non-procurenient transactions include
 grants, cooperative agreements, scholarships, fellowships;contracts of assistance, loans, loan
 guarantees, subsidies, insurance, payments for specified use, and donation agreements.

In addition, you are prohibited .from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR .Subpart9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you                 ' n a y not have supervisory .
responsibility, primary management, substantive control over, o r critical iqfluence.on,a grant,
contract, or cooperative agreementwith any agency of the Executive Branch of the Federal
Government.

Should you have any questions, please do not hesitate to contact
        at (703) 292-8060.



                                                    Sincerely,



                                                    Cora B. Marrett
                                                    Acting Deputy Director



cc:    Mr. Robert Liechty, Esq.
       Cross & Liechty, PC
       7100 E. Belleview Ave., Ste. G-11
       Greenwopd Village, CO 80111
       [via electronic mail and first-class mail)
